Audit Report



Return
    to the USDOJ/OIG Home Page



Office of
Community Oriented Policing Services Grant to the
North Chicago, Illinois Police Department
GR-50-00-007
December 23, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of  a grant awarded by the Office of Community Oriented Policing Services to the North Chicago, Illinois Police Department.  The purpose of the grant is to enhance community policing.  The grantee was awarded a total of $975,000 to hire 13 new full-time police officers.
	
	We reviewed the grantee's compliance with seven essential grant conditions.  We found the grantee's practices concerning budgeting, hiring, and retention generally acceptable.  However, we found weaknesses in four areas as identified below.  As a result, we question $61,421.1

The grantee received reimbursement of $55,605 for two non-grant funded officers.

	The grantee failed to provide the appropriate local match required by the FAST award.  As a result, we question $5,816.

	The grantee did not deploy the number of officers equal to the number of officers funded under the grant into community policing.

	Several status reports were either not timely, not filed, or not accurate.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.




Footnotes

   The Inspector General Act of 1988 contains our reporting requirements for questioned costs.  However, not all of our findings are dollar-related.  See Appendix III for a definition of questioned costs.